OFFICE OF INSPECTOR GENERAL
 for the Millennium Challenge Corporation



RISK ASSESSMENT OF
MILLENNIUM CHALLENGE
ACCOUNT VANUATU’S
FINANCIAL OPERATIONS




REPORT NO. M-000-07-003-F
January 11, 2007


WASHINGTON, DC
                Office of Inspector General
                   for the
                Millennium Challenge Corporation



                January 11, 2007


                The Honorable John J. Danilovich
                Chief Executive Officer
                Millennium Challenge Corporation
                875 15TH Street, NW
                Washington, DC 20005-2203


                Dear Mr. Ambassador:

                This letter transmits our final report on the Risk Assessment of Millennium Challenge
                Account Vanuatu’s Financial Operations. In finalizing the report, we considered your
                written comments on our draft report and included those comments in their entirety in
                Appendix II of this report.

                The report contains no audit recommendations for corrective action.

                I appreciate the cooperation and courtesy extended to my staff during the audit.


                Sincerely,

                /s/
                John M. Phee
                Assistant Inspector General
                Millennium Challenge Corporation




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
    CONTENTS

Background ..................................................................................................................... 1 


         Assessment Objectives ........................................................................................... 2 


Discussion……………………………………………………………………………………… 2 


        Cash Management………………………………………………………………..………2 


        Procurement……...………………………………………………………………..………3 


        Conclusion...……...………………………………………………………………..………4 


Appendix I – Scope and Methodology .......................................................................... 5 


Appendix II – Management Comments ......................................................................... 6 





3
BACKGROUND

On March 2, 2006, the United States of America, acting through the Millennium
Challenge Corporation (MCC), signed a Compact Agreement with the Government of
Vanuatu to provide a grant of approximately $65.7 million. The Compact “entered-into
force” on April 28, 2006.

The five-year Compact program addresses the country's poor transportation
infrastructure. Consisting of eleven infrastructure projects—including roads, wharfs, an
airstrip and warehouses—the program aims to benefit poor, rural agricultural producers
and providers of tourist related goods and services by reducing transportation costs and
improving the reliability of access to transportation services.

The goal of the Compact is to have a transformative impact on Vanuatu's economic
development by increasing average income per capita by 15 percent within 5 years and
directly impacting the lives of more than 65,000 poor, rural inhabitants—almost a third of
the entire population.

Millennium Challenge Account (MCA) Vanuatu's program consists of two principal
components:

      1) Civil works for the reconstruction of priority transport infrastructure on eight
      islands, covering roads, wharfs, an airstrip, and warehouses; and

      2) Institutional strengthening efforts and policy reform initiatives in Vanuatu's
      Public Works Department, including: provision of plant and equipment for
      maintenance; introduction of service performance contracts; establishment of local
      community maintenance schemes; and introduction of user fees. These efforts
      aim to ensure the sustainable operation and maintenance of Vanuatu's entire
      transport infrastructure network, not only those assets built or rehabilitated with
      MCC funds.

The    Compact      also    includes    approximately   $5.0     million   for   Program
administration, oversight, and Monitoring and Evaluation.

MCA Vanuatu is responsible for the oversight and management of the MCC Compact.
At the time of our assessment, MCA Vanuatu had established its operational structure
consisting of the following.

   •	 A steering committee to oversee MCA Vanuatu’s responsibilities and obligations
      under the Compact. The Steering Committee is comprised of both government
      and non-governmental stakeholders.

   •	 A Program Management Unit that is responsible for day-to-day management
      responsibilities for implementation of the Compact. The management team will
      ultimately be composed of the following members:          Managing Director,
      Economist, Engineer, Environmental and Social Impact officer and one Support
      Staff.


                                            1

ASSESSMENT OBJECTIVES
The Office of Inspector General performed a risk assessment of critical areas in MCA
Vanuatu’s financial operations to identify vulnerabilities that could adversely impact MCA
Vanuatu’s operations; we determined that the most critical areas are cash management
and procurement. Therefore, our risk assessment was designed to identify and evaluate
vulnerabilities in those areas.




DISCUSSION
During our site visit we observed that MCA Vanuatu had established the Fiscal and
Procurement Agents for the MCA program which is essential for MCA’s establishment of
accountability over MCA program funds; however, necessary information regarding MCA
disbursements was not being received by MCA Vanuatu.

Cash Management

We assessed the overall risk associated with MCA Vanuatu’s cash management
process as moderate. However, we determined that MCA Vanuatu could improve its
process for managing its disbursements.

To manage the program’s disbursements, MCA Vanuatu maintains an account with the
Republic of Vanuatu’s Reserve Bank. However, as of the time of our review in late
August 2006 the MCA had made no disbursements from this account. The Government
of Vanuatu paid for MCA expenses out of a General Fund and the MCA had not yet
reimbursed the General Fund. The Director of MCA Vanuatu explained to us that
expenses had been incurred on behalf of MCA Vanuatu and that he kept manual entries
of expenses incurred. The Director explained that he had not received reports confirming
his expenses from Vanuatu’s Department of Finance which serves as the Fiscal Agent
for MCA Vanuatu. However, a spokesperson for the Department of Finance commented
that the MCA expense information was available to the Director through the existing
electronic accounting system. The Director explained to us that he could not access the
financial information regarding MCA Vanuatu’s expenses because he had not received
training on how to use the electronic accounting system. On the other hand, the
spokesperson from the Ministry of Finance stated to us that he had thought that the
Director did have staff with the knowledge on how to use the system. During our risk
assessment, MCA Vanuatu sent to the Ministry of Finance a request for the needed
training.

In addition, the MCC approved a total disbursement of $1,574,624 for the period from the
entry-into-force of the Compact April 28, 2006 to September 30, 2006. However, the MCC
provided MCA Vanuatu traunches (payments) of the requested disbursement on a monthly
basis. The monthly traunches are derived from the monthly estimates provided in the MCA
Vanuatu Financial Plan. The first traunch included an additional $500,000 for working
capital. The $500,000 amount provided was in addition to MCA Vanuatu’s total estimate of




                                            2

cash needs. This is in accordance with the MCC’s policy of providing MCAs with $500,000
above the MCAs’ total estimate of their cash needs.

At the time of our site visit at the end of August 2006, MCA Vanuatu had in its separate
MCA Account, $1,350,504. Later we confirmed with MCC that, as of September 30, 2006
MCC had distributed to MCA Vanuatu $1,575,000. Expenses incurred by MCA Vanuatu
from entry-into-force April 28, 2006 to September 30, 2006 were $104,035. We believe the
difference1 was in excess of the MCA’s immediate cash needs. In accordance with the U.S.
Department of Treasury guidelines, we believe that disbursements to MCAs should only be
for MCAs’ immediate cash needs. We are not making a recommendation in this report to
address the MCC’s policy related to disbursements discussed above because a
recommendation was made by the OIG in its transmittal letter contained in the recent audit
of MCC’s financial statements2 and also a similar recommendation was made by the OIG in
its Report on the Risk Assessment of Millennium Challenge Account Cape Verde’s
Financial Operation.3


Procurement

We assessed the risk associated with MCA Vanuatu’s procurement processes as being
moderate. Based on our assessment, we believe that MCA Vanuatu had established
policies that complied with the procurement guidelines established by MCA Vanuatu and
the MCC. However we did have concerns with the lack of communication between the
Procurement Agent and the Director of MCA Vanuatu.

The Compact entered-into-force on April 28, 2006. A Procurement Agreement was
signed with the BCEOM French Engineering Consultants and MCA Vanuatu on May 15,
2006. On June 15, 2006 an Interim Procurement Plan was put into place. On June 26,
2006 the Procurement Agent accepted responsibility for approving and implementing
purchase order requisitions under $50,000. During a site visit the week of June 26, 2006
through June 30, 2006, ten procurements under $50,000 were reviewed by MCC staff
and found by them to be in compliance with the Procurement Agreement.

Initially, the Procurement Agent did not understand and perform the full scope of his
responsibilities in accordance with that agreed to by the MCA. This problem was due
primarily to an oversight on part of MCA Vanuatu and the initial confusion of the
Procurement Agent and MCA Vanuatu concerning the Procurement Agent’s scope of
responsibility for making small procurements.




1
  The difference is calculated as $1,350,504 minus $104,035 equals $1,246,469. This is the monetary
difference between the cash provided to MCA (plus interest earned) and the expenses MCA incurred during
the time period from April 28, 2006 through September 30, 2006.
2
  Audit Report No. M-000-07-001-F, Audit of the Millennium Challenge Corporation’s Financial
Statements, Internal Controls, and Compliance for the Period Ending September 30, 2006 and 2005. See
Recommendation No. 2.
3
  Audit Report No. M-000-06-004-F, Risk Assessment of Millennium Challenge Account Cape Verde’s
Financial Operations. See Recommendation No. 1.


                                                  3

While ultimately it is the responsibility of MCA Vanuatu to ensure coordination, the MCC
played a strong role in managing the conflict that arose between MCA Vanuatu and the
Procurement Agent.          Eventually, responsibilities of the Procurement Agent were
resolved and communications between the two parties was greatly improved by the use
of an independent consultant hired by the MCC.


CONCLUSION

We assessed the overall risk associated with MCA Vanuatu’s cash management and
procurement processes as both being moderate.


RECOMMENDATIONS

Our review did not disclose any findings for which previous recommendations had not
been made; therefore, no recommendations are included herein.




                                           4

                                                                             APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Office of Inspector General (OIG) performed a risk assessment of MCA Vanuatu
financial operations. The purpose of the assessment was to evaluate and identify
vulnerabilities in areas that may adversely impact MCA Vanuatu’s financial operations.
This was not an audit, and as such we did not apply all Government Auditing Standards
procedures to identify all conditions that may adversely affect MCA Vanuatu’s financial
operations. The risk assessment was conducted at MCA Vanuatu in Port Vila, Vanuatu
from August 25, 2006, to August 28, 2006. Following the assessment fieldwork
performed in Vanuatu, the assessment team consulted with MCA Vanuatu and the MCC
in Washington from September 3, 2006 to November 6, 2006.



Methodology
To gain an understanding of MCA Vanuatu operation and controls, the OIG interviewed
MCA Vanuatu staff, the Fiscal and Procurement Agents, the Auditor General of Vanuatu
and the relevant MCC personnel in Washington, DC. The risk assessment focused on
MCA Vanuatu’s financial operations from April 28, 2006, to August 25, 2006. We
assessed transactions, policies, controls and procedures in effect during this period. We
judged risk exposure (i.e., the likelihood of significant abuse, illegal acts and/or misuse
of resources; failure to achieve program objectives; and noncompliance with laws,
regulations, and management policies) in the areas of cash management and
procurement. Using this information, we assessed the level of risk (low, moderate, or
high) for each of these key financial operations.

The general methodology for the risk assessment included the following:

  •	 Interviews of key MCA Vanuatu personnel in each of the areas assessed;
  •	 Reviews of the Compact agreement, sub-agreements and applicable laws and
     regulations;
  •	 Reviews of current MCA Vanuatu policies, procedures and processes;
  •	 Evaluations of transactions processed during the review period; and
  •	 Considerations of the MCC’s role in establishing and implementing MCA Vanuatu.

The risk assessment has the following limitations:

  •	 Higher risk exposure assessments are not a definitive indicator that objectives are
     not being achieved or that irregularities are occurring. Rather, a higher risk
     exposure implies that the particular function is more vulnerable to adverse events.

  •	 Because the assessments consider both internal and external factors, some of
     which are outside the span of control of management, risk exposure assessments,
     in isolation are not an indicator of management capability.




                                            5

                                                                                   APPENDIX II
                          MANAGEMENT COMMENTS




December 12, 2006



Mr. John M. Phee
Assistant Inspector General
Millennium Challenge Corporation
1300 Pennsylvania Ave, NW
Washington, DC 20523

Dear Mr. Phee:

With respect to the risk assessment of Millennium Challenge Account-Vanuatu financial operations
report numbered M000-07-XXX-F, we appreciate the opportunity to provide to you our comments.
As you point out, this review was not an audit, and therefore was not subject to specific or expansive
procedures normally performed under audit conditions.

The report highlights specific areas of moderate vulnerability for financial operations. One such area
was that the Vanuatu disbursement tranches exceeded the immediate cash needs. The second area
discussed in the report was that reimbursement to the Vanuatu General Fund account was not occurring.
MCC Fiscal Accountability is aware of both of these areas of concern and has worked closely with
MCA-Vanuatu and the Fiscal Agent (the Ministry of Finance) to ensure that both situations are resolved.
We will continue to monitor that the Fiscal Agent stays compliant with our guidelines.

The report also addresses MCA Vanuatu’s procurement process and determined it carried a moderate
risk level. The assessment found the Procurement Agent did not understand and perform the full scope
of its responsibilities. It was further found that there appeared to be some communication difficulties
between the Procurement Agent and MCA Vanuatu. While the communication with the Procurement
Agent showed some improvement at the end of August, during the IG team visit, the situation further
deteriorated and MCC terminated the Procurement Agent Agreement on November 14, 2006. MCA-
Vanuatu is currently in the process of obtaining a new Procurement Agent.

Thank you for the opportunity to review and comment on the report. We look forward to working
collaboratively on MCC issues in the future.

Sincerely yours,


/s/ Charles O. Sethness
Vice President Accountability




                                             6
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
